                               Office of Inspector General
                              Corporation for National and
                                       Community Service




 AUDITOF CORPORATION FOR NATIONAL
                                AND
  COMMUNITY  SERVICE
                   GRANTS  AWARDED
     TO THE COLORADO GOVERNOR'S
   COMMISSION ON COMMUNITY SERVICE
           OIG REPORT
                    NUMBER
                         05-04



                                               Coworation for             fl


                                              NATIONALU
                                              COMMUNITY
                                              SERVICE-




                       Prepared by:

           Leonard G. Birnbaum and Company
                 6285 Franconia Road
               Alexandria, Virginia 22310




This report was issued to Corporation management on January 12,2005. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report's findings and recommendations no
later than July 12, 2005, and complete its corrective actions by January 12,
2006. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                  Office of Inspector General
                        Corporation for National and Community Service
                                      Audit Report 05-04

  Audit of Corporation for National and Community Service Grants Awarded to the Colorado
                       Governor's Commission on Community Service

                                         OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Leonard G. Birnbaum and Company to perform an incurred-cost audit of
grants awarded to the Colorado Governor's Commission on Community Service (Commission).
The contract required that the audit be done in accordance with generally accepted government
auditing standards.

For the grants audited, the Commission claimed costs of $10,509,601, of which the auditors
questioned $1,10 1,703 of unallowable claimed costs. Overall, the auditors questioned 10.5
percent of claimed costs. Costs questioned for allowability represent amounts for which
documentation shows that recorded costs were expended in violation of regulations or specific
award conditions, or costs that require an interpretation of allowability. The auditors also noted
instances of noncompliance with provisions of Federal laws, regulations and grant award
provisions. Costs questioned for support require additional documentation to substantiate that
the costs were incurred and are allowable. The auditors concluded that the Consolidated
Schedule of Award Costs presents fairly the costs claimed by the Commission, except for the
questioned and unsupported costs identified in the report, and the effects of any adjustments.

The Commission's response to the draft report includes significant documentation to support
questioned costs. When appropriate, the auditors reviewed the support and adjusted their audit
findings. The remaining support and the Commission's corrective actions will be reviewed by
the Corporation as part of the audit resolution process.

The Office of Inspector General provided officials of the Colorado Governor's Commission on
Community Service and the Corporation with a draft of this report for their review and comment.
Their responses are included in their entirety as Appendices A and B, respectively.
                      Audit of Corporation for National and Community Service
                                      Grants Awarded to the
                      Colorado Governor's Commission on Community Service


                                                      Table of Contents

                                                                                                                                    Page
REPORT SUMMARY AND HIGHLIGHTS
     Results in Brief ..........................................................................................................      1

          Grant Programs Audited ............................................................................................         2

          Costs Questioned .....................................................................................................      2

          Internal Controls and Compliance ...........................................................................                3

          Purpose and Scope of Audit .......................................................................................          4

          Background ............................................................................................................     5


INDEPENDENT AUDITOR'S REPORT.. ............................................................................                           7

FINANCIAL SCHEDULES
     Consolidated Schedule of Award Costs ....................................................................                        9

          Exhibit A - Schedule of Award Costs:
                      ArneriCorps ............................................................................................       11

                     Schedule A-1 - Schedule of Award Costs:
                                    Boulder County Schools.. ....................................................                    12

                     Schedule A-2 - Schedule of Award Costs:
                                    Bright Beginnings ................................................................               13

                     Schedule A-3 - Schedule of Award Costs:
                                    Catholic Charities .................................................................             14

                     Schedule A-4 - Schedule of Award Costs:
                                    Colorado Parent and Child Foundation ................................                            15

                     Schedule A-5 - Schedule of Award Costs:
                                    Larimer County Workforce Center .......................................                          16

           Exhibit B - Schedule of Award Costs:
                       Administrative ........................................................................................ 17
        Exhibit C - Schedule of Award Costs:
                    Program Development Assistance and Training (PDAT) ......................

        Exhibit D - Schedule of Award Costs:
                    Learn and Serve ......................................................................................

        Exhibit E - Schedule of Award Costs:
                    America Reads ........................................................................................

        Exhibit F - Schedule of Award Costs:
                    Promise Fellows .....................................................................................

        Exhibit G - Schedule of Award Costs:
                    Education Awards ..................................................................................

        Exhibit H - Schedule of Award Costs:
                    Disability Grant ......................................................................................


COMPLIANCE AND INTERNAL CONTROLS
    Independent Auditor's Report on Compliance and
    Internal Controls Over Financial Reporting ............................................................

         Compliance Findings ..............................................................................................

         Internal Control Findings ........................................................................................

         Follow-up on Pre-Audit Survey Findings ..............................................................


RESPONSES TO REPORT

Colorado Governor's Commission on Community Service ...................................... ..Appendix A

Corporation for National and Community Service ...................................................... .Appendix B
REPORT SUMMARY AND HIGHLIGHTS
                         LEONARD G . BIRNBAUM                        AND      COMPANY, LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                     WASHINGTON OFFICE
                                                    6285 FRANCONIA ROAD
                                                  ALEXANDRIA, VA 22310-2510


                                                        (703) 922-7622
                                                      FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                          WASHINGTON, D.C.
LEONARD G. BIRNBAUM                                                                                    SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                       REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




       Office of Inspector General
       Corporation for National and Community Service

       This report is issued under an engagement with the Office of Inspector General (OIG) to audit the
       costs claimed by the Colorado Governor's Commission on Community Service (Commission) and
       its subgrantees from August 1,2000, through December 3 1,2003, under the grants awarded by the
       Corporation for National and Community Service (Corporation). This report focuses on the audit of
       claimed costs, instances of noncompliance with Federal laws, applicable regulations or award
       conditions, and internal control weaknesses disclosed during the audit of the Commission and its
       subgrantees.

                                                    Results in Brief

       As a result of our audit of these awards, we are questioning costs totaling $1,101,703, an amount that
       represents approximately 10.5 percent of the $10,509,601 in costs claimed by the Commission.
       Questioned costs are those for which there is documentation that the recorded costs were expended
       in violation of Federal laws, regulations or specific conditions of the award, or those costs which
       require additional support, including documentation, or require an interpretation of allowability by
       Corporation grant officials. Of the $1O,5O9,6O 1 in costs claimed by the Commission, $1,10 1,703
       was questioned because the Commission and/or its subgrantees were unable to provide sufficient
       documentation to support the claimed costs. This documentation was largely associated with the
       Grantee's matching contributions to the Corporation's grants. Details related to questioned costs
       appear in the Independent Auditor's Report.




                             MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
                                         Grant Programs Audited

Our audit of the Commission covered financial transaction, compliance, and internal controls testing
of the following program awards funded by the Corporation:

   Program              Award Number                Award Period               Audit Period
AmeriCorps              00ASCC0006                08/01/00 to 12131/03     0910 1100 to 12131/O3
AmeriCorps              00ASFC0006                09/01/00 to 12131/03     0910 1100 to 12131/O3
PDAT'                   95PDSC0006                01/01/95 to 12/31/01     01/01/01 to 12/31/01
PDAT                    02PDSC0006                01/01/02 to 12/31/04     01/01/02 to 12/31/03
Administrative          94SCSC0006                01/19/94 to 03/31/01     01101/00 to 06/30/0 1
Administrative          01 SCSC0006               01/01/01 to 12/31/03     01/01/01 to 12/31/03
Learn and Serve         OOLSCCOOO6                09/01/00 to 0813 1/03    09/01/00 to 0813 1/03
America Reads           98ARCC0006                09/01/98 to 0813 1/01    10/01/00 to 0813 1/01
Promise Fellows         99APSC0006                12/15/99 to 12/31/01     10/01/00 to 12/31/01
Promise Fellows         0 1APSC0006               12/17/01 to 12/16/04     12/17/01 to 12/31/03
Education Awards        98EDSC0006                09/01/98 to 12/31/02     10/01/00 to l2/3 1/02
Education Awards        01EDSC0006                09/01/0 1 to 0813 1/04   0910 1101 to 12131/03
Disability              0 1DCSC0006               01/01/01 to 12/31/03     01/01/01 to 12/31/03

Our audit of the costs claimed by the Commission under these awards disclosed the following:

                                                                           Percentage of
                                                         Amount            Budget/Claimed
Award Budget                                          $ 12,503,676
Claimed Costs                                           10,509,601                84.1%
Questioned Costs                                         1,101,703                10.5%

                                              Costs Questioned

The following summarizes the costs questioned under these awards:

AmeriCorps Grant
     Unsupported costs
     Total Questioned - ArneriCorps

Program Development Assistance & Training
      Unsupported costs
      Total Questioned - PDAT

                   -      --      -




I   PDAT refers to Program Development Assistance and Training.
Administrative
     Unsupported match costs
     Unsupported costs
     Total Questioned - Administrative

Learn and Serve
      Unsupported costs
      Total Questioned - Learn and Serve

Total Questioned - All Grants

In most cases, we used a random sampling method to test the costs claimed. Based upon this
sampling plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. In addition, we have made no attempt to project such
costs to total expenditures incurred, based on the relationship of costs tested to total costs. For a
complete discussion of these questioned costs, refer to the Independent Auditor's Report.

                                     Internal Controls and Compliance

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations, and award conditions:

             Match costs claimed by the Commission and a subgrantee were not adequately supported.

             Supporting documentation was not available for all costs claimed by the Commission
             and several subgrantees.

             The Commission did not submit Financial Status Reports (FSRs) on a timely basis.

             Subgrantees did not maintain all of the required AmeriCorps eligibility documentation.

The noncompliance findings concerning the lack of documentation to support matching contributions
and AmeriCorps member eligibility are also considered material internal control weakne~ses.~




' A material weakness is a reportable condition in which the design or operation of one or more of the internal control
components does not reduce, to a relatively low level, the risk that errors or irregularities, in amounts which would be
material to the financial schedules being audited, may occur and not be detected within a timely period by employees in
the normal course of performing their assigned functions.
                                      Purpose and Scope of Audit

Our audit covered the costs claimed under Corporation Grant Nos. 00ASFC0006,00ASCC0006,
00LSCC0006, 94SCSC0006, 01SCSC0006, 95PDSC0006, 02PDSC0006, 97DCSC0006,
01DCSC0006,99APSC0006,98ARCC0006,98EDSC0006 and 01EDSC0006.

The principal objectives of our audit were to determine whether:

                  Financial reports prepared by the Commission presented fairly the financial results of
                  the award;

                  Internal controls were adequate to safeguard Federal funds;

                  The Commission and its subgrantees had adequate procedures and controls to ensure
                  compliance with Federal laws, applicable regulations, award conditions, and that
                  members' service was appropriate to the programs;

                  Award costs reported to the Corporation were documented and allowable in
                  accordance with the award terms and conditions; and

                  The Commission had established adequate oversight and informed subgrantees of the
                  Corporation's GPRA goals.3

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed against the awards, as presented in the Consolidated
Schedule of Award Costs and the grant-specific Schedules of Award Costs (Exhibits A through H),
are free of material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in Exhibits A through H. An audit also includes assessing the
accounting principles used and significant estimates made by the auditee, as well as evaluating the
overall financial schedule presentation. Our audit included reviews of audit reports and working
papers prepared by the independent public accountants for the Commission and its subgrantees in
accordance with the requirements of OMB Circular A-133. Our audit also follo-wed up on the
findings and recommendations in the Pre-Award Survey Report of the Commission dated December
6, 2000 (OIG Audit Report No. 01-25). We believe our audit provides a reasonable basis for our
opinion.



3
    GPRA refers to the Government Performance and Results Act of 1993 (Pub. L. No. 103-62).
With regard to GPRA, AmeriCorps subgrantees submit semiannual progress reports to the
Commission and Corporation that are used to monitor and assess program accomplishments. The
Corporation maintains these progress reports on its Web-Based Reporting System. The Corporation
develops program reporting guidelines that cascade from its Federal reporting requirements. The
Commission does not make continuation grants available to subgrantees that do not make significant
progress toward meeting their program's objectives. In summary, the process appears to be working
as intended. The Commission is interested in obtaining useful reports from its subgrantees to
forward to the Corporation. The Commission Program Officer assesses the adequacy of the
information reported on goal accomplishment, and the Commission takes action on identified
reporting deficiencies.

The contents of this draft report were disclosed to, and discussed with, the Commission at an exit
conference on September 29,2004. In addition, we provided a draft of this report to the Commission
and to the Corporation for comment on October 5,2004. Responses are included in the this report as
Appendices A and B, respectively.

                                           Background

The National and Community Service Trust Act of 1993, which amended the National and
Community Service Act of 1990, established the Corporation for National and Community Service
(Corporation). The Corporation funds opportunities for Americans to engage in service that fosters
civic responsibility, strengthens communities, and provides educational opportunities for those who
make a substantial commitment to service.

The Corporation awards grants and cooperative agreements to State commissions, nonprofit entities,
tribes and territories to assist in creating full-time and part-time national and community service
programs. Through these grants, AmeriCorps members perform service to meet educational, human,
environmental, and public safety needs throughout the nation, with special attention focused on
needs related to poverty. In return for their service, program participants may receive a living
allowance and a monetary award for educational purposes.

The Corporation awards approximately 75 percent of its AmeriCorps funds to State commissions.
State commissions are responsible for developing and communicating a vision and ethic of service
throughout their State.

In addition, State commissions, acting as grantees, distribute funds to subgrantees to enable them to
administer service programs. State commissions are responsible for monitoring subgrantee
compliance with grant requirements. The commissions are also responsible for providing training
and technical assistance to service programs. State commissions are, however, prohibited from
directly operating service programs.
The Colorado AmeriCorps programs are administered by the Colorado Governor's Commission on
Community Service (Commission), which operates out of the Colorado Community College System
and under the oversight of Colorado's Office of the Lieutenant Governor. The Commission is
staffed by a full-time equivalent of 3.5 employees.

During the audit period, the Corporation provided the Commission with approximately $12.5 million
in funding, of which the Commission had drawn down $10.5 million. This funding includes
AmeriCorps Formula Funds, AmeriCorps Competitive Funds, Administrative Funds, PDAT Funds,
Promise Fellows Funds, Disability Funds, and America Reads Funds. Of this amount, the
Commission distributed approximately $7.6 million to subgrantees. The Commission's subgrantees
are State and local government agencies and nonprofit organizations.

Through December 3 1, 2003, the Corporation authorized, and the Commission had drawn down,
grant funding as follows:

                                                              Authorized           Drawdown
       00ASFC0006 - AmeriCorps (Formula)                     $ 2,835,304       $    2,375,219
       00ASCC0006 - AmeriCorps (Competitive)                   5,540,128            4,440,609
       00LSCC0006 - Learn and Serve                              600,000              524,757
       94SCSC0006 - Administrative Funds                         526,758              526,758
       01 SCSC0006 - Administrative Funds                        743,564              689,260
       95PDSC0006 - PDAT Funds                                   43 1,235             43 1,235
       02PDSC0006 - PDAT Funds                                   290,276              198,038
       97DSCC0001 - Disability                                      3,98 1              3,981
       OlDSCCOOOl - Disability                                    98,000               32,122
       98ARCC0006 - America Reads                                634,817              634,s 17
       01APSC0006 - Promise Fellows                              369,000              275,636
       99APSC0006 - Promise Fellows                              208,530              208,530
       98EDSC0006 - ArneriCorps Education Awards                 105,939              105,939
       01EDSC0006 - AmeriCorps Education Awards                  116,144               62,700

       TOTAL                                                 $ 12,503.676      $   10,509,601



                                         Report Release

This report is intended for the information and use of the Office of Inspector General, management
of the Corporation for National and Community Service, the Colorado Governor's Commission on
Con~munityService and its subgrantees, and the U.S. Congress. However, this report is a matter of
public record and its distribution is not limited.
                        LEONARD G . BIRNBAUM                         AND     COMPANY, L L P
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA. VA 22310-2510


                                                       (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                            WASHINGTON, D.C.
LEONARD G. BIRNBAUM                                                                                      SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                         REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M . CLARKE




       Office of Inspector General
       Corporation for National and Community Service

                                  INDEPENDENT AUDITOR'S REPORT

       We have audited the costs incurred by the Commission for the award numbers listed below. These
       costs, as presented in the Consolidated Schedule of Award Costs and the grant-specific Schedules of
       Award Costs (Exhibits A through H), are the responsibility of the Commission's management. Our
       responsibility is to express an opinion on Exhibits A through H, based on our audit.

          Program          Award Number                 Award Period                          Audit Period
       AmeriCorps          00ASCC0006                 08/01/00 to 12131/03                09/01/00 to 12131/03
       AmeriCorps          00ASFC0006                 O9/O 1100 to 12131/03               0910 1100 to 12131103
       PDAT                95PDSC0006                 01/01/95 to 12/31/01                01/01/01 to 12/31/01
       PDAT                02PDSC0006                 01/01/02 to 12/31/04                01/01/02 to 12/31/03
       Administrative      94SCSC0006                 01/19/94 to 03/31/01                0110 1/00 to 06/30/0 1
       Administrative      01 SCSC0006                01/01/01 to 12/31/03                01/01/01 to 12/31/03
       Learn and Serve     OOLSCC0006                 O9/O 1100 to 0813 1103              0910 1100 to 0813 1103
       America Reads       98ARCCO006                 09/01/98 to 0813 1101               10/01/00 to 0813 1/01
       Promise Fellows     99APSC0006                 12/15/99 to 12/31/01                10/01/00 to 12/31/01
       Promise Fellows     OlAPSCOOO6                 12/17/01 to 12/16/04                12/17/01 to 12/31/03
       Education Awards    98EDSC0006                 09/01/98 to 12131/02                1010 1100 to 12131/02
       Education Awards    0 1EDSC0006                O9/O1101 to 08/3 1/04               O9/O 1101 to 12131103
       Disability          0 1DCSC0006                01/01/01 to 12/31/03                01/01/01 to 12/31/03




                            MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
We conducted our audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the financial schedules are free of material misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial
schedules. An audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial schedule presentation. We believe
our audit provides a reasonable basis for our opinion.

In our opinion, except for $1,101,703 in questioned costs, the Consolidated Schedule of Award Costs
and the grant-specific Schedules of Award Costs (Exhibits A through H and related Schedules)
referred to above present fairly, in all material respects, the costs claimed by the Commission for the
period August 1,2000, to December 3 1,2003, in conformity with accounting principles which differ
slightly from accounting principles generally accepted in the United States of America, as explained
on page 10.

In accordance with Government Auditing Standards, we have also issued our report, dated July 28,
2004, on compliance and on internal controls over financial reporting.

This report is intended for the information and use of the Office of Inspector General, management
of the Corporation for National and Community Service, the Colorado Governor's Commission on
Community Service and its subgrantees, and the U.S. Congress. However, this report is a matter of
public record and its distribution is not limited.




Alexandria, Virginia
July 28, 2004
                   Colorado Governor's Commission on Community Service
                           Consolidated Schedule of Award Costs

                         Corporation for National and Community Service Awards
                                                                                     Costs Claimed
                                                                                      by CGCCS
                                     Award Number           Award Amount              (2000-2003)

AmeriCorps
Formula                              94ASFC0006                    330,191                252,935
Formula                              00ASFC0006                  2,835,304              2,375,218
Competitive                          00ASCC0006                  5,540,128              4,440,609
     Total AmeriCorps                                        $   8,705,623       $      7,068,762

Administrative
                                     94SCSC0006              $      526,758      $        526,758
                                     OlSCSCOOO6                     743,564               689,260
      Total Administrative                                   $    1,270,322      $      1,216.018

Program Development Assistance
& Training (PDAT)                    95PDSC0006              $     43 1,235      $       43 1,235
                                     02PDSC0006                    290,276               187,416
      Total PDAT                                             $     721,511       $       618.651

Learn and Serve                      00LCSC000 1             $     600,000       $        573.257

America Reads                        98ARCC0006              $     634,817       $        634,8 17

Promise Fellows
                                     99APSC0006              $     208,530       $        208,530
                                     01APSC0006                    369,000                316.033
      Total Promise Fellows                                  $     577,530       $        524,563

Disability
                                     97DSCC0006              $        3,98 1     $          3,981
                                     0 lDSCC0006                     98,000                32,122
      Total Disability                                       $      101,981      $         36,103

Education Awards
                                     98EDSC0006              $      105,939      $         30,750
                                     0 1EDSC0006                    116,144                40,507
      Total Education                                        $      222,083      $         71,257

Total - all programs                                         $ 12.833.867        $ 10,743,428
                   Colorado Governor's Commission on Community Service
                       Notes to Consolidated Schedule of Award Costs


Summary of Significant Accounting Policies

Reporting Entity

The accompanying Consolidated Schedule of Award Costs include amounts budgeted, claimed, and
questioned under AmeriCorps, Administrative, and Program Development and Training grants
awarded by the Corporation to the Commission for the period August 1, 2000, to December 3 1,
2003.

The Commission awards its AmeriCorps grant funds to numerous subgrantees that administer the
AmeriCorps program and, in turn, report financial and programmatic results to the Commission.

Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and the Commission. The information presented in the
Schedule has been prepared from the reports submitted by the Commission to the Corporation. The
basis of accounting used in preparation of these reports differs slightly from accounting principles
generally accepted in the United States of America as follows:

A.     Equipment

Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in the
Schedule of Award Costs include the cost of equipment purchased during the period rather than a
provision for depreciation. The Commission owns all equipment purchased while it is being used in
the program for which it was purchased or in other future authorized programs. However, the
Corporation has a reversionary interest in the equipment. Its disposition, as well as the ownership of
any proceeds therefrom, is subject to Federal regulations.



Minor materials and supplies are charged to expense during the period of purchase.
                                                                                   Exhibit A
                 Colorado Governor's Commission on Community Service
                               Schedule of Award Costs
                    Corporation for National and Community Service
                             Award Number 00ASCC0006
                             Award Number 00ASFC0006
                        September 1,2000, to December 31,2003
                                         (Note)

                                       AMERICORPS


                                         Claimed            Questioned
Subgrantee                                Costs               Costs             Reference

Boulder County Schools                     $603,288                    0         Schedule A- 1

Bright Beginnings                           597,162                    0        Schedule A-2

Catholic Charities                          528,336                    0         Schedule A-3

Colorado Parent and Child Foundation      1,055,641               $3,516         Schedule A-4

Larimer County Workforce Center             677,161                    0         Schedule A-5

Total - Detailed Audits                $ 3,461.588          $      3,516

-
Note

The total costs reported under the AmeriCorps program during the period audited include costs
claimed by subgrantees that were not audited. During the period covered by our audit, the
Commission had 17 ArneriCorps subgrantees. We used a sampling approach to determine which
subgrantees would be subjected to detailed audits.
                                                                                Schedule A-1

                   Colorado Governor's Commission on Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 00ASCC0006
                           January 1,2001, to December 31,2003

                                   Boulder County Schools


Approved Budget (Federal funds)                                      $   741,524     Note 1

Claimed Costs                                                            603,288     Note 2

Questioned Costs                                                     $          0




Notes

   1. The amount shown above as Approved Budget represents the total funding to Boulder
        County Schools for Program Years 2000-01 to 2002-03, according to the budget schedules
        for the Commission's grants.

   2. Claimed costs represent expenditures reported by Boulder County Schools for Program
      Years 2000-0 1 through 2002-03.
                                                                              Schedule A-2

                   Colorado Governor's Commission on Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 00ASFC0006
                           January 1,2001, to September 30,2003

                                    Bright Beginnings


Approved Budget (Federal funds)                                    $   723,879    Note 1

Claimed Costs                                                          597,162    Note 2

Questioned Costs                                                   $          0




-
Notes

   1. The amount shown above as Approved Budget represents the total funding to Bright
      Beginnings for Program Years 2000-01 to 2002-03, according to the budget schedules for
      the Commission's grants.

   2. Claimed costs represent expenditures reported by Bright Beginnings for Program Years
      2000-01 through 2002-03.
                                                                                 Schedule A-3

                   Colorado Governor's Commission on Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 00ASCC0006
                           January 1,2001, to September 30,2003

                                     Catholic Charities


Approved Budget (Federal funds)                                      $   698,161        Note 1

Claimed Costs                                                            528.336        Note 2

Questioned Costs




Notes

   1. The amount shown above as Approved Budget represents the total funding to Catholic
      Charities for Program Years 2000-01 to 2002-03, according to the budget schedules for the
      Commission's grants.

   2. Claimed costs represent expenditures reported by Catholic Charities for Program Years
      2000-01 through 2002-03.
                                                                                  Schedule A-4

                   Colorado Governor's Commission on Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 00ASCC0006
                          September 1,2001, to December 31,2003

                           Colorado Parent and Child Foundation


Approved Budget (Federal funds)                                       $ 1,091,850        Note 1

Claimed Costs per FSRs                                                                   Note 2

Questioned Costs                                                      $      3,516       Note 3



Notes

   1 . The amount shown above as Approved Budget represents the total funding to Colorado
       Parent and Child Foundation for Program Years 2000-01 to 2002-03, according to the
       budget schedules for the Commission's grants.

   2. Claimed costs represent expenditures reported by Colorado Parent and Child Foundation
      (CPCF) for Program Years 2000-0 1 through 2002-03.

   3. The CPCF's accountant both accrued and was paid salary costs of $625 in June 2001.
      However, the accrual was not reversed when actual payment was made, resulting in the
      Corporation's grant being charged twice for the $625 in salary costs.

        Jeffco (Jefferson County) Public Schools, a CPCF subgrantee, operated the Family Literacy
        Program. The purpose of a number of grant costs incurred under the program could not be
        determined, or the costs were not supported by sufficient documentation. This resulted in
        questioned costs of $2,89 1.
                                                                                  Schedule A-5

                   Colorado Governor's Commission on Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 00ASCC0006
                           January 1,2001, to December 31,2003

                             Larimer County Workforce Center


Approved Budget (Federal funds)                                     $   837,209        Note 1

Claimed Costs per FSRs                                                  677.161        Note 2

Questioned Costs                                                               0




Notes

   1. The amount shown above as Approved Budget represents the total funding to Larimer
        County Workforce Center for Program Years 2000-01 to 2002-03, according to the budget
        schedules for the Commission's grants.

   2. Claimed costs represent expenditures reported by Larimer County Workforce Center for
      Program Years 2000-0 1 through 2002-03.
                                                                                      Exhibit B

                   Colorado Governor's Commission on Community Service
                                  Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 94SCSC0006
                                Award Number 01SCSC0006
                            January 1,2000, to December 31,2003

                                    ADMINISTRATIVE


Approved Budget (Federal funds)                                       $ 1,270,322    Note 1

Claimed Costs                                                           1,216,018    Note 2

Questioned Costs                                                      $ 1.089.907    Note 3

Notes

1. The amount shown above as Approved Budget represents the total funding to the Commission
   for its administrative grant for Program Years 2000-01 to 2002-03, according to the budget
   schedules for the Commission's grants.

2. Claimed costs represent the amount of reported administrative grant expenditures for Program
   Years 2000-0 1 through 2002-03.

3. The Commission incurred various expenditures for which the purpose could not be determined
   or there was not adequate documentation. Claimed costs of $1,089,907 are questioned.

   The Commission claimed administrative costs of $1,216,018, of which $12,541 was questioned
   for various reasons as explained below. The administrative grant requires a 100 percent match.
   Because of inadequate documentation, only $126,111 of claimed match costs were supported.
   As a result, $1,077,366 of match costs have been questioned.

        Cost Claimed PY 2001-2003
        Direct Cost Questioned
        Balance
        Match Accepted
        Match Cost Questioned
In January 2004, the Colorado Lieutenant Governor's Chief of Staff charged $9,266 to the
administrative grant to cover one quarter of her salary and the costs of her benefits for five
months. In order to be claimed under the grant, such costs must, among other requirements, be
supported by timekeeping and activity reports that document the employee's activities that are
allocated to the grant. The Commission did not maintain these timekeeping and activityreports.
Moreover, the PY 2003 budget approved by the Corporation contained no provision for the grant
to absorb costs generated from the Lieutenant Governor's office, nor was authorization requested
from the Corporation to allocate these costs to the grant.

The Commission paid $3,275 in 2003 for an individual from another State agency to assist the
Lieutenant Governor's office with the coordination of Colorado Cares Day. No time sheets,
payroll information, or other documentation was available to determine how this amount was
derived. In addition, there were no provisions in the Corporation-approved budget to allow for
such expenditures.
                                                                                 Exhibit C
                   Colorado Governor's Commission on Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 95PDSC0006
                               Award Number 02PDSC0006
                           January 1,2001, to December 31,2003

         PROGRAM DEVELOPMENT ASSISTANCE AND TRAINING (PDAT)


Approved Budget (Federal funds)                                       $   721,511    Note1

Claimed Costs                                                             618.65 1   Note 2

Questioned Costs                                                      $      4,975   Note 3




1. The amount shown above as Approved Budget represents the total funding to the Commission
   for its PDAT grant for Program Years 2000-01 to 2002-03, according to the budget schedules for
   the Commission's grants.

2. Claimed costs represent the amount of reported PDAT grant expenditures for the Program Years
   2000-01 to 2002-03.

3. The Commission incurred various expenditures for which the purpose could not be determined
   or was not adequately documented, resulting in questioned costs of $4,975.
                                                                               Exhibit D

                   Colorado Governor's Commission on Community Service
                                  Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 00LSCC0006
                            September 1,2000, to August 31,2003

                                   LEARN AND SERVE


Approved Budget (Federal funds)                                     $   600,000    Note 1

Claimed Costs                                                            573,257   Note 2

Questioned Costs                                                    $      3.305   Note 3


Notes

   The amount shown above as Approved Budget represents the total Learn and Serve funding to
   the Colorado Department of Education (CDE) for Program Years 2000-01 to 2002-03,
   according to the budget schedules for the Commission's grants.

   Claimed costs represent expenditures reported by CDE for Program Years 2000-01 through
   2002-03.

   Denver Parks and Recreation, a CDE Learn and Serve subgrantee, incurred various expenditures
   for which the purpose could not be determined, were inadequately documented, or were
   incorrectly charged to the grant, resulting in questioned costs of $3,305.
                                                                                  Exhibit E

                   Colorado Governor's Commission on Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                              Award Number 98ARCC0006
                             October 1,2000, to August 31,2003

                                   AMERICA READS


Approved Budget (Federal funds)                                    $   634.817    Note 1

Claimed Costs                                                          634,8 17 Note 2

Questioned Costs                                                   $          0



Notes


   1. The amount shown above as Approved Budget represents the total America Reads funding
      to the Colorado Department of Education (CDE) for Program Years 2000-01 to 2002-03,
      according to the budget schedules for the Commission's grants.

   2. Claimed costs represent expenditures reported by CDE for Program Years 2000-01 through
      2002-03.
                                                                                   Exhibit F

                   Colorado Governor's Commission on Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 99APSC0006
                               Award Number 01APSC0006
                            October 1,2000, to December 31,2003

                                  PROMISE FELLOWS


Approved Budget (Federal funds)                                    $   577,530    Note 1

Claimed Costs                                                          524.563    Note 2

Questioned Costs

Notes

   1. The amount shown above as Approved Budget represents the total Promise Fellows funding
      to the Colorado Department of Education (CDE) for Program Years 2000-01 to 2002-03,
      according to the budget schedules for the Commission's grants.

   2. Claimed costs represent expenditures reported by CDE for Program Years 2000-01 through
      2002-03.
                                                                                   Exhibit G

                   Colorado Governor's Commission on Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 98EDSC0006
                               Award Number 01EDSC0006
                            October 1,2000, to December 31,2003

                                  EDUCATION AWARDS


Approved Budget (Federal funds)                                     $   222,083    Note 1

Claimed Costs                                                                      Note 2

Questioned Costs                                                    $          0

-
Notes

   1. The amount shown above as Approved Budget represents the total Education Awards
      funding to the Colorado Department of Education (CDE) for Program Years 2000-01 to
      2002-03, according to the budget schedules for the Commission's grants.

   2. Claimed costs represent expenditures reported by CDE for Program Years 2000-01 to 2002-
        03.
                                                                                   Exhibit H

                   Colorado Governor's Commission on Community Service
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 97DSCC0006
                               Award Number 01DSCC0006
                           January 1,2001, to December 31,2003

                                       DISABILITY


Approved Budget (Federal funds)                                     $   101.891   Note 1

Claimed Costs                                                            36,103   Note 2

Questioned Costs

-
Notes

   1. The amount shown above as Approved Budget represents the total Disability grant funding
      to the Colorado Department of Education (CDE) for Program Years 2000-01 to 2002-03,
      according to the budget schedules for the Commission's grants.

   2. Claimed costs represent expenditures reported by CDE for Program Years 2000-01 through
      2002-03.
                       LEONARD G . BIRNBAUM                         AND     COMPANY, L L P
                                        CERTIFIED PUBLIC ACCOUNTANTS
                                                  WASHINGTON OFFICE
                                                  6285 FRANCONIA ROAD
                                                ALEXANDRIA, VA 22310-2510


                                                      (703) 922-7622
                                                    FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                          WASHINGTON, D.C.
LEONARD G. BIRNBAUM                                                                                    SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                       REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




       Office of Inspector General
       Corporation for National and Community Service

            INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
                        CONTROLS OVER FINANCIAL REPORTING

       We have audited the Schedules of Award Costs, as presented in Exhibits A through H, that
       summarize the claimed costs of the Colorado Governor's Commission on Community Service under
       the Corporation awards listed below, and have issued our report thereon dated July 28, 2004.

          Program         Award Number                 Award Period                         Audit Period
       AmeriCorps         00ASCC0006                 08/01/00 to 12131/03               O9/O 1100 to 12131/O3
       AmeriCorps         00ASFC0006                 09/01/00 to 12131/03               O9/O 1100 to 12131/O3
       PDAT               95PDSC0006                 01/01/95 to 12/31/01               01/01/01 to 12/31/01
       PDAT               02PDSC0006                 01/01/02 to 12/31/04               01/01/02 to 12/31/03
       Administrative     94SCSCOOO6                 01/19/94 to 03/31/01               0 1101/00 to 06/30/01
       Administrative     01 SCSC0006                01/01/01 to 12/31/03               01/01/01 to 12/31/03
       Learn and Serve    OOLSCC0006                 09/01/00 to 0813 1/03              09/01/00 to 0813 1/03
       America Reads      98ARCC0006                 09/01/98 to 0813 1/01              10101100 to 0813 1101
       Promise Fellows    99APSC0006                 12/15/99 to 12131/01               10/01/00 to 12/31/01
       Promise Fellows    01APSC0006                 12117/01 to 12116/04               12/17/01 to 12/31/03
       Education Awards   98EDSC0006                 09/01/98 to 12131/02               10101100 to 12131102
       Education Awards   01EDSC0006                 09/01/01 to 0813 1/04              0910 1101 to 12131/O3
       Disability         01DCSC0006                 01/01/01 to 12/31/03               01/01/01 to 12/31/03

       We conducted our audit in accordance with auditing standards generally accepted in the United
       States of America and Government Auditing Standards, issued by the Comptroller General of the
       United States. Those standards require that we plan and perform the audit to obtain reasonable
       assurance about whether the financial schedules are free of material misstatement.




                           MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
Compliance

Compliance with applicable Federal laws, regulations, and the provisions of the awards is the
responsibility of the Commission's management. As part of obtaining reasonable assurance about
whether the financial schedules are free of material misstatement, we performed tests of compliance
with certain provisions of laws, regulations, and terms and conditions of the awards. However, our
objective was not to provide an opinion on overall compliance with such provisions. Instances of
noncompliance are failures to follow requirements, or violations of prohibitions, contained in
statutes, regulations, and award provisions.

Compliance Findings

The results of our tests of compliance disclosed the following instances of noncompliance. Draft
report Findings Nos. 1, 3, 5, 7, 12 and 15 were removed from this final report as a result of
supplemental documentation being received. The remaining findings have been renumbered.

Finding No. 1

In January 2004, an entry was made charging 25 percent of the salary of the Colorado Lieutenant
Governor's Chief of Staff for five months, totaling $9,266, to the administrative grant. While we
note that the Lieutenant Governor's office has oversight responsibilities for the Commission, the PY
2003 budget contained no provision for this grant to absorb costs generated from the Lieutenant
Governor's office, nor was permission requested from the Corporation. Moreover, there were no
contemporaneous time sheets or activity reports available that documented the totality of this
individual's time. The Commission created a time allocation schedule to provide justification for
these charges after questions were raised during the audit. However, it is not possible to verify the
validity of the time allocation or the total hours worked. As of the spring of 2004, the individual was
no longer employed as Chief of Staff by the Lieutenant Governor's office.

Office of Management and Budget Circular A-87, Cost Principlesfor State, Local, and Indian Tribal
Governments, establishes documentation and record-keeping standards for employees who work on
multiple activities or cost objectives. It requires that distribution of a portion of an individual's
salary to Federal grant funding be supported by personnel activity reports that (1) reflect the
employee's actual after-the-fact activity, (2) account for the total activity for which the employee is
compensated, (3) are prepared at least monthly, (4) signed by employees.

Financial Management Provision 4(b) of the ArneriCorps General Provisions for Program
Development and Training, Disability Placement and State Administrative Awards requires that "the
Grantee must maintain adequate supporting documents for its expenditures (federal and non-federal)
and in-kind contributions made under this grant. Costs must be shown in books or records [e.g., a
disbursement ledger or journal], and must be supported by a source document, such as a receipt,
travel voucher, invoice, bill, in-kind voucher, or similar document."
These provisions also require that "the Grantee has full fiscal and programmatic responsibility for
managing all aspects of grant and grant-supported activities, subject to the oversight of the
Corporation. The Grantee is accountable to the Corporation for its operation of the AmeriCorps
program and the use of Corporation grant funds. It must expend grant funds in a judicious and
reasonable manner."4 he Commission's failure to keep adequate records of this individual's work
for the Commission violates OMB cost principles and the Corporation's provisions on administrative
costs. Accordingly, the $9,266 charged to the grant for this individual's salary is questioned.

Recommendation

We recommend that the Commission adjust costs claimed for the $9,266 in salary charges and
establish procedures to ensure that costs claimed are in conformity with administrative grant
provisions. The Corporation should more closely scrutinize the legitimacy of such costs charged to
the grant.

Commission 's Response

The Commission disagrees with this finding and takes the position that, when the Commission was
reassigned to the Office of the Lieutenant Governor, the Lieutenant Governor's Chief of Staff was
assigned supervisory oversight over the Commission. Subsequently, when aposition included in the
Commission's budget became vacant, the Commission used these savings to cover the cost of 25
percent of the Chief of Staffs salary. The Commission notes that funds for the Chief of Staffs
salary were included in the approved budget for 2004. The Commission also claims that its
timekeeping practices were based on a waiver from the requirements of OMB Circular A-87 that was
obtained from the U.S. Department of Education.

Auditor's Comment

The Commission's response does not provide a copy of a waiver from the requirements of OMB
Circular A-87. This waiver was specifically requested at the exit conference on September 29,2004.
Accordingly, the finding and recommendation remain unchanged.

Finding No. 2

The Colorado Community College System (CCCS) is responsible for the maintenance of accounting
records and supporting documentation for the Colorado Governor's Commission on Community
Service. The CCCS and the Commission were unable to provide adequate supporting documentation
for several non-payroll transactions, as summarized in the following table:


  See General Provisions for Program Development and Training, Disability Placement and State Administrative
Awards, Responsibilities Under Grant Administration, Section C(3)(a).
 Grant                                          PY2001        PY2002         PY2003         Totals

 01 SCSC0006 - Administrative                            -                   $ 3,275       $ 3,275

 02PDSC0006 - PDAT                                 4,975              -              -       4,975

 Totals                                         $ 4,975                      $ 3,275       $ 8,250

Details of these questioned costs are presented below:

Administrative



   The Commission paid $3,275 for an individual from another State agency to assist the Lieutenant
   Governor's office with the coordination of Colorado Cares Day. No time sheets, payroll
   information, or other documentation was available to determine how this amount was derived.
   In addition, there was no provision in the budget for such expenditures.

PDAT



    A journal entry for $600, described as a charge from the administrative grant to the PDAT grant
    for the cost of printing a registration brochure, could not be supported by documentation. It was
    not possible to determine how the costs were derived or to verify the nature of the expenditure.
    The Commission charged $4,375 for advance registrations for the Colorado Conference on
    Volunteerism, held in April 2001. Commission employees were listed as registrants along with
    35 unidentified individuals. However, no voucher or other documentation was available to
    verify the unit cost of registration or otherwise support the cost claimed.

These conditions result in a violation of the terms and conditions of the grant and potential funding
misapplications. Financial Management Provision 4(b) under Section C of the General Provisions
for Program Development and Training, Disability Placement and State Administrative Awards,
requires the Grantee to "maintain adequate supporting documents for its expenditures and in-kind
contributions under this grant. Costs must be shown in books or records and must be supported by a
source document, such as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar
document."

Furthermore, grant administration responsibilities require the grantee to have "full fiscal and
programmatic responsibility for managing all aspects of grant and grant-supported activities, subject
to the oversight of the Corporation. The grantee is accountable to the Corporation for its operation
of the AmeriCorps program and the use of Corporation grant funds. It must expend grant funds in a
judicious and reasonable manner."5 The Commission's failure to maintain adequate supporting
documentation for these transactions resulted in a violation of the terms and conditions of the grant.

Recommendation

We recommend that the Commission adjust costs claimed against its Administrative and PDAT
grants for the $15,495 of inadequately documented charges and establish procedures to ensure that
costs claimed conform to administrative grant provisions and Federal regulations. We recommend
that the Commission provide close scrutiny over the adequacy of its documentation for all charges,
and establish a methodology to ensure that costs and refunds are charged to correct cost centers and
grant periods.

Commission 's Response

The Commission asserts that the $3,275 payment to an individual for assistance to the Lieutenant
Governor's office was a contractual payment and that further documentation is not required.

The Commission acknowledges that an invoice supporting the $600 journal entry for the cost of
printing a registration brochure can not be located.

The Commission contends that the documentation submitted in support of the $4,375 for advance
registrations is adequate. The Commission, with its response, provided a list of names it asserts was
e-mailed to the conference coordinators.

Auditor's Comment

We do not agree that the $3,275 payment is a contractual payment. The payment is against an
interagency agreement between the Office of the Lieutenant Governor and the Office of Economic
Development (OED) for the services of a specified OED employee. There is no provision in OMB
Circular A-87 that exempts employees of sister agencies or departments from the timekeeping
recording requirements set forth in the Circular. Accordingly, the finding and recommendation
remain unchanged.

Since the Commission has not provided either the original invoice or other documentation that
clearly demonstrates the accuracy of the amount or its nature of the cost related to the journal entry
for $600, the finding and recommendation remain unchanged.

We do not agree that the documentation submitted to support the $4,375 for advance registrations is
sufficient. We note that, with its response, the Commission provided what it asserts to be a listing of
attendees that was e-mailed to the conference organizers. However, the Commission did not to
5
 See General Provisions for Program Development and Training, Disability Placement and State Admmstrative Awards,
Section C, Responsibilities Under Grant Administration, Section C(3)(a).
                                                       29
identify the relation between the individuals identified and the Commission. Accordingly, the
finding and recommendation remain unchanged.

Resolved Issues

The following issues were originally questioned in the draft audit report and have since been
adequately supported with documentation provided by the Commission and accordingly, are no
longer questioned:

       The Commission made payments of $1,000 and $500 for costs associated with a Colorado
       mentoring conference.

       A payment of $1,000 was made to an organization for training, $910 of which was
       reimbursed to the Commission and deposited to a non-PDAT account.

       A payment of $880 was claimed for a speaker at the PY 2002 Colorado Services Conference.
       However, the Commission did submit the contractor's invoice.

       The Commission did not adequately support incurred PDAT costs of $2,880 for honoraria
       and various training booklets.

       A staff member for Colorado Parent and Child Foundation, a Commission subgrantee, billed
       in duplicate $1 95 for pre-audit reviews at various sites.

Finding No. 3

As noted in the table below, the Commission claimed administrative match costs of $l,l26,8 12 for
the audit period of PY2001- 2003, including canyovers from prior periods. Of the costs claimed, we
have questioned $1 ,OOO,7O1 and accepted $126,111. These matching costs were questioned primarily
because insufficient documentation was provided in support of the amounts claimed.

                                         Unsupported Match
  Fiscal Year      Match Claimed                                     Match Accepted
                                               Costs




    Totals          $1,126,812                $1 ,000,70 1               $126,111

Analysis of the unsupported match costs by year:


                                               30
Carryover charges of $50,694 and $169,189 from PY 2000 were not documented.

The Commission claimed match costs of $30,000 per year for the period Program Years 2001
through 2003 for various services provided by the Colorado Community College System
(CCCS). Costs were claimed for legal, fiscallfinance, facilitieslmaintenance, conference, and
computer services for a total of $62,000 per year. This amount was based on estimates for 2004,
a year outside the audit period, and applied to Program Years 2001 through 2003. The total was
offset by $20,000 in each year. No detailed support was provided to document how the amounts
claimed were computed. We noted, however, that the Commission paid $1 15,000 for these
services. This amount exceeded the total offset portion of $60,000 by $55,000. The following
table displays the annual amounts paid by the Commission:

1 Description                      2001   1           2002    /      2003    1       Total   I
1 Rent                         $  5,000   1        $  5,000   1          -   I   $  10,000   /
 Indirect Cost                   48,286              36,714         20,000         105,000
 Total                         $ 53,286            $ 41,714       $ 20,000       $ 115,000

The Youth Leadership Institute claimed costs of $7,500. The Commission supplied information
describing the activities of the organization, but did not provide a cost breakdown or any
supporting documentation.

The Commission claimed $1,329 for three individuals to review ArneriCorps grants at an amount
of $443 per person. No documentation of the dates, hours worked, or billing rate was provided.
The Commission claims that the hours worked would have resulted in a rate of $18 to $24 per
hour, but this information could not be verified. Since the $443 appears to have been based on
the maximum daily consultant rate that can be charged to Corporation grants, we have applied a
rate of $20 per hour and have accepted a daily amount of $160, or $480 for three reviewers. The
$20 per hour rate was based on the amount actually paid to an individual by the Commission in
Program Year 2003 to perform the identical function described on the in-kind contribution claim
form. A total of $849 is questioned ($1,329 - $480).

The $150,000 claim for the value of media coverage for Colorado Cares Day was based on
internally generated estimates prepared by the Governor's press staff and was not possible to
verify from the documentation and explanations provided by the Commissior~. In order to
adequately determine the value of such contributions, documentation of specific times that
coverage was provided and documentation of the applicable rates for those times are required.
The Commission explained that the Governor's office was unable to locate the detailed backup
documentation on the media rates used to generate the claim. Consequently, we have questioned
these costs.
                                              31
Carryover charges of $2 11,188 from PY 200 1 were not documented.

As noted in the discussion and the table for PY 2001, the Commission claimed match costs of
$30,000 per year for the period Program Year 2001 through 2003 for various services provided
by the Colorado Community College System (CCCS). Costs were claimed for legal,
fiscallfinance, facilitieslmaintenance, conference and computer services for a total of $62,000,
less a $20,000 offset per year, none of which could be adequately verified.

As discussed under the amounts questioned above for PY 2001, the $150,000 claim for the value
of media coverage for Colorado Cares Day was based on internally generated estimates prepared
by the Governor's press staff that could not be verified from the documentation and explanations
provided by the Commission.

The Youth Leadership Institute claimed costs of $7,500. As in PY 2001, the Commission
supplied information describing the activities of the organization, but did not provide a cost
breakdown or any supporting documentation. The Commission noted that the amount of this
claim was determined by a former Executive Director, who had estimated a value of $7,500 for
host-site contributions.



Carryover charges of $209,164 from PY 2002 were not documented.

As noted in the discussion and the table for PY 2001, the Commission claimed match costs of
$30,000 per year for the period PY 2001 through PY 2003 for various services provided by the
Colorado Community College System (CCCS). Estimated costs were claimed for legal,
fiscallfinance, facilitieslmaintenance, conference, and computer services, for a total of $62,000,
less a $20,000 offset per year. None of these claimed matching costs could be adequately
verified.

A matching cost of $4,626 was claimed for the services of an individual from the Colorado
Department of Public Health and Environment to provide support of mentoring activities and
training. No documentation was made available to determine how this amount was derived.
There were no dates noted, time sheets verifying hours, pay rates applied, or indications of
specific activities performed.

The Commission claimed $7,088 for eight individuals to review ArneriCorps grants at an amount
of $886 per person. No documentation of the dates, hours worked, or billing rate was provided.
The Commission, in response to an audit request, estimated the numbers of hours that are
required to perform the review and stated that more than two days were necessary. However, this
   information could not be verified. Since the $886 appears to have been based on the maximum
   daily consultant rate of $443 that can be charged to Corporation grants, we have applied a rate of
   $20 per hour and have accepted a two-day amount of $320, or $2,560 for eight reviewers. The
   $20 per hour rate was based on the amount actually paid to an individual by the Commission in
   PY 2003 to perform the identical function described on the in-kind contribution claim form. A
   total of $4,528 is questioned ($7,088 - $2,560).

   The Commission claimed $1,2 18 for conference meeting space at a foundation. There was no
   explanation as to how the amount was determined, the purpose of the Commission's use of the
   facility or how it contributed to the Commission's administrative functions.

   Matching costs of $21,515 were claimed in PY 2003 for services provided by the State Parks
   Department for Colorado Cares Day. A schedule of names and pay rates was included in the
   documentation but there was no detail, time sheets, or other supporting documentation to
   determine how the claimed costs were computed or to verify their validity.

   Matching costs of $880 were claimed for two days of conference space, equipment, and beverage
   service at CCCS. While the amount of the claim does not appear unreasonable, there was no
   explanation for the use of the space. Costs for conference space at CCCS were included in the
   annual $30,000 claim noted above and, in addition, the Commission provided payments totaling
   $1 15,000 to CCCS for space and other services during the audit period.

AmeriCorps Administrative Provision C(4)(b), Source Documentation, requires that the Grantee
"maintain adequate supporting documents for its expenditures (federal and non-federal) and in-kind
contributions made under this grant. Costs must be shown in books or records [e.g., a disbursement
ledger or journal], and must be supported by a source document, such as a receipt, travel voucher,
invoice, bill, in-kind voucher, or similar document." (Emphasis added.) Due to the Commission's
failure to maintain adequate documentation to account for marching contributions, we have
questioned $1,067,701 of matching costs.

Recommendation

We have adjusted the Administrative grant costs claimed for the questioned match and recommend
that the Commission enact procedures to ensure that costs claimed are in conformity with applicable
grant provisions.

Commission's Response

The Commission asserts that all carryover charges are documented in a table the Commission uses to
track each year's match. Further, the Commission disagrees with the audit position that the
Commission paid $1 15,000 for services from the Colorado Community College System. The
Commission believes that an annual signed in-kind form is sufficient documentation to support the
match from the Colorado Community College System.
The Commission asserts that the former Executive Director who completed the in-kind form
estimated the value of costs claimed by the Youth Leadership Institute at $7,500.

With regard to the $1,329 claimed for reviewers, the Commission does not consider the use of a rate
actually paid for prior similar services to be appropriate as a measure for these in-kind services.

The Commission, in response to the draft report, provided additional documentation which it
believes supports the $150,000 in questioned match costs questioned related to Colorado Cares Day.

The Commission contends that the donor from the Colorado Department of Public Health and
Environment who provided a signed in-kind form is sufficient documentation to support the amount
of $4,626 claimed for mentoring services.

In response to the draft report, the Commission provided an explanation for the use of a foundation's
meeting facility, for which $1,2 18 has been questioned, together with a similar cost claim from
another organization.

The Commission represents that for the $2 1,515 of match costs for services provided by the State
Parks Department, it relied on the "professional expertise of the State Parks Accountant" and that
employee time sheets were not requested as such a request would have included more than 100 time
sheets.

The Commission states that the $880 of conference costs questioned was recorded in error

Auditor's Comment

As a general observation, we note that, in response to the draft report, the Commission provided a
significant amount of documentation. Most of this documentation was in the form of copies ofprint
media coverage of Colorado Cares Day, minutes of meetings, agendas, discussion points, and the
like, most of which provide no basis for validation of the value of services or goods the Commission
represents were provided as matching costs.

We do not agree that the mere listing of amounts on a schedule of carryover match costs, without
reference to the original recording of such costs which are, in turn, supported by original transaction
documents, is adequate to verify claimed costs.

An annual signed in-kind form, for various services provided by CCCS, which simply states an
amount, without any other support, does not meet the requirements of AmeriCorps
AdministrativeProvision C(4)(b). As to the amount actually paid for these services, the
Commission's response identifies costs that were paid and recorded in one year as being applicable
to a prior year. There is no evidence to suggest that an adjustment was made in reporting these
match costs to the Corporation. Accordingly, the finding and recommendation remain unchanged.
The Commission has offered no additional information regarding the $7,500 costs questioned for the
Youth Leadership Institute other than to provide a newspaper article related to the event and a copy
of a related web page. Accordingly, the original finding and recommendation remain unchanged.

The Commission has not provided any additional documentation to support the difference between
the amount claimed for reviewers and the rate actually paid in PY 2003 from Commission funds.
Accordingly, the original finding and recommendation remain unchanged.

With respect to the $150,000 claimed as match costs for media coverage for Colorado Cares Day, we
note that the draft report stated that, to adequately determine the value of such contributions,
documentation is required to verify the specific times that coverage was provided to verify the
applicable broadcast advertising rates for those times are required. In its response, the Commission
provided statements from media entities listing when spots were presented. The Commission,
however, has not provided any documentation related to the applicable rates for such coverage,
except for $46,250 from Mix1 OOFM and $3 1,900 from Channel 9 KUSA-TV for media coverage
during PY 2001. Accordingly, except for these amounts, the original finding and recommendation
remain unchanged.

We do not agree that the donor's signed in-kind form is adequate to support $4,626 claimed for the
services of an individual from the Colorado Department of Health. As originally noted, the form
does not identify dates worked, pay rates, hours worked, or activities performed. Accordingly, the
original finding and recommendation remain unchanged.

The additional documentation provided by the Commission to support the $1,2 18 for a foundation's
conference meeting space was an incomplete voucher for in-kind services that offered no more
support for this expenditure than the documentation originally offered by the Commission.
Accordingly, the original finding and recommendation remain unchanged.

With respect to the $21,515 of State Parks Department match, we note, again, that there is no
provision in OMB Circular A-87 that exempts employees of related agencies from the timekeeping
recording requirements set forth in the Circular. Accordingly, the original finding and
recommendation remain unchanged.

Resolved Issues

The following were originally questioned in the draft audit report and have since been adequately
supported by the Commission and accordingly, are no longer questioned:

        The Commission provided additional documentation in support of the $500 cost for website
        work that had been questioned.

        Additional time sheets supporting the $1,479 for consultant's time were provided.
           We have accepted the signed in-kind form that supported $1,200 for a consultant who
           provided services.

           The Commission adequately supported the $991 for airfare and hotel costs that were paid by
           an outside organization.

Finding No. 4

The following discrepancies were noted between the Commission's reported costs of two grants and
the balances maintained in the corresponding general ledgers.

           Learn and Serve costs in the general ledger exceeded the amounts reported on the
           Commission's final FSR by $13,798.

I source                                                                                  I   Amount        I
     Per General Ledger                                                                       $ 587,055
     Learn and Serve Final Financial Status Revorts as of 12131/03                                573,257
/    Excess of General Ledger over FSR Reported Cost                                      1   $    13,798

           Education grant drawdowns per grant number 01EDSC0006 exceeded costs recorded in
           the general ledger by $22,193.

I    source                                                                               i              n
I    Education grant drawdowns as of 6110104                                              I $      62.700 1
     Per General Ledger                                                                            40,507
     Excess of drawdowns over General Ledger                                                  $    22,193

    Commission personnel did not provide a reconciliation of the differences noted above as of the date
    of this report, but suggested that such differences are possibly the result of timing.

    AmeriCorps Provision 2 1(a), Financial Management Provisions, requires that the Grantee "maintain
    financial management systems that include standard accounting practices, sufficient internal controls,
    a clear audit trail and written cost allocation procedures as necessary. Financial management
    systems must be capable of distinguishing expenditures attributable to this grant from expenditures
    not attributable to this Grant."

    Financial Management Provision 4(a), under Section C of the General Provisioris for Program
    Development and Training, Disability Placement and State Administrative Awards, requires that
    "the Grantee must maintain financial management systems that include standard accounting
    practices, sufficient internal controls, a clear audit trail and written cost allocation procedures as
    necessary."
This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications.

Recommendation

We recommend that the Commission develop and implement an internal control procedure to ensure
that the total funds expended are reconciled to the total funds reported by the Commission to the
Corporation. We also recommend the preparation of worksheets and reconciliations to support any
differences between drawdowns from the Corporation and the FSRs.

Commission's Response

The Commission, responding for the Colorado Department of Education, disagrees with this finding.
In response to the draft report, the Department of Education presented records fro^ the Colorado
Financial Reporting System that show the following:

       Expenditures for Year 1
       Expenditures for Year 2
       Expenditures for Year 3
       Total

The Commission also disagrees with the finding related to the Education Grant, representing that
its general ledgers reflect $62,700 as total expenditures under the grant.

Auditor's Comment

During the audit, the Commission presented what it represented to be the general ledger records for
the Learn and Serve program, which reflected the amounts presented in the finding (i.e. totaling
$587,055). Review of the documents submitted in response to the draft report disclos.edthat the final
entry on each of the records for Years 1 and 2 were debits in amounts which, when added to previous
recorded amounts, equaled exactly the amount of the grant. Similarly, the general ledger records
presented during the audit showed $40,507 as total expenditures for the Education grant. We believe
that the records presented by the Commission during the audit are correct. Until the Commission can
satisfactorily explain why these records disagree, the original finding and recommendation will
remain unchanged.

Finding No. 5

Our review of AmeriCorps member records disclosed various exceptions to documentation and other
compliance requirements, as noted below. The tables display the number of exceptions compared to
the number tested per year.
   Bright Beginnings
   1 lssue                                             2001             2002           2003
   I No Mid and/or End Evaluations               1     6of6       1     2of5       1      -     I
   Catholic Charities
    Issue                                              2001              2002          2003
    High School Diploma not Documented                 2of3                -           3 of6
    Background Checks not Documented                   1of3               -
    Citizenship not Documented                         1 of3            1of5
    No Mid and/or End Evaluations                      3 of3            5 of5          6of6
    Position Description not Documented                  -              2of5           4of6
    Contract Elements Incomplete                       1of3               -               -
    Orientation not Documented                         1of3             1 of5          1 of6

No costs were questioned in the report with respect to members who were determined to be
ineligible for the program because Catholic Charities' cash match was sufficient to offset any
amounts that would have been questioned.

   Larimer Countv Workforce Center
    Issue                                              2001             2002           2003
    High School Diploma not Documented                                  1of7           1 of7
    Position Description not Documented                1of7               -
    Contract Elements Incom~lete                       1of7               -

Two members were determined to be ineligible for the program in Program Years 2002 and 2003
because their records lacked high school diploma documentation. The costs associated with these
two members amounted to $2,745 of living allowances and benefits. This amount was not
questioned in the report because Larimer County's cash match was sufficient to offset the $2,745.

Colorado Parent and Child Foundation

       Issue                                           2001              2002           2003
       High School Diploma not Documented              3 of7
       Background Checks not Documented                2 of7                            1 of7
       Citizenship not Documented                      2of7                -
       Minimum Age not Documented                      1 of7
       Position Description not Documented             2of7                -            1 of7
       Contract Elements Incom~lete                    2of7
       Orientation Not Documented                      1of7                            3of7
       No Mid and/or End Evaluations                   6of7             4of6            -
   I   W-4's not on File                               3 of7              -


                                               38
Colorado Parent and Child Foundation subgranted funds received from the Commission to six
organizations in Program Years 2001 and 2003 and to seven organizations in PY 2002. In addition,
Colorado Parent and Child Foundation's subgrantees were responsible for the living allowances paid
to the members. Because no Corporation funds were used to pay living allowancess, we have not
questioned costs incurred on behalf of those members who may have been ineligible for the program.

The instances of the missing documentation from the members' files appear to result from
insufficient emphasis on the importance of properly maintaining the members' records.

AmeriCorps Provision 14(a), Member Records and Confidentiality, requires that the Grantee
maintain records "that document each member's eligibility requirements . . . The records must be
sufficient to establish that the individual was eligible to participate in the Program and that the
member successfully completed the Program requirements."

The AmeriCorps Provisions that establish applicable policies and procedures for subgrantees with
regard to member records, eligibility, and support are as follows:

 AmeriCorps Special Provisions                 2000                2001                2002

 Section B                                 7.8.15 & 17         6.7. 14 & 16      7.8. 14. 15 & 17

The above conditions result in violations of the requirements of the AmeriCorps Provisions and
potential funding misapplications.

Recommendation

We recommend that the Commission: (1) reemphasize to its subgrantees the need iror compliance
with eligibility requirements contained in the AmeriCorps Provisions and (2) ensure that member
files are reviewed for compliance with these provisions during site visits by Commission staff.

Commission 's Response

The Commission, responding for the subgrantees, generally agreed with the findings.

Auditor's Comment

The Commission's response is considered adequate.

Finding No. 6

The accountant of Colorado Parent and Child Foundation (CPCF) both accrued and was paid salary
costs of $625 in June 2001. However, the accrual was not reversed when paym7nt was made,
resulting in duplicate charges of $625 to the Corporation's grant funding.
AmeriCorps Provision 2 1(a), Financial Management Provisions, requires that the Grantee "maintain
financial management systems that include standard accounting practices, sufficient internal controls,
a clear audit trail and written cost allocation procedures as necessary. Financial management
systems must be capable of distinguishing expenditures attributable to this Grant from expenditures
not attributable to this Grant."

ArneriCorps Provision 2 1(b), Source Documentation, requires that the Grantee "maintain adequate
supporting documents for its expenditures . . . and in-kind contributions made under this grant.
Costs must be shown in books or records. . . and must be supported by a source document, such as
a receipt, travel voucher, invoice, bill, in-kind voucher, or similar document."

Although the overcharge appears to be the result of an error, this condition results in a violation of
the terms and conditions of the grant and could result in potential funding misapplications. Properly
supported and accurate financial information is required for timely and effective reporting and
management decision-making.

Recommendation

We recommend that the Commission ensure that all subgrantee charges are adequately supported and
charged to correct cost centers and grant periods.

Commission 's Response

The Commission, responding for the grantee, acknowledged that a duplicate charge occurred and
stated that the subgrantee is prepared to return the $625.

Auditov's Comment

The Commission's response is considered adequate.

Finding No. 7

Colorado Parent and Child Foundation subgranted funds received from the Commission to six
organizations in Program Years 2001 and 2003 and to seven organizations in PY 2002. One ofthose
programs, Family Literacy, operated by Jeffco Public Schools, incurred various expenditures for
which the purposes could not be determined or were not adequately documented. Costs claimed of
$2,891 have been questioned. The following tables itemize the questioned costs by year.
I Description                      6
                                                  I      Amount / Reason for Cost Questioned            1
 Noted as Hippy training                                  $2,386 Expenditure not documented.
 Total                                                    $ 2.386




I Descri~tion                                     I      Amount I Reason for Cost Ouestioned
 Hippy supplies                                            $425 Duplicate charge claimed by Program
                                                                  Coordinator.
 Miscellaneous expenditure                                   80 Nature of transaction not determined.
 Total                                                     $5E

We tested AmeriCorps member stipends for several pay periods, and no exceptions were noted.
Family Literacy, however, was unable to document the total amount of living allowances paid each
year under the AmeriCorps program. Although various funding sources other than Corporation
funds were used to pay stipends, the agency has a responsibility to accurately record and report all
AmeriCorps costs incurred under the program.

AmeriCorps Provision 2 1(a), Financial Management Provisions, requires that the Grantee "maintain
financial management systems that include standard accounting practices, sufficient internal controls,
a clear audit trail and written cost allocation procedures as necessary. Financial management
systems must be capable of distinguishing expenditures attributable to this grant from expenditures
not attributable to this Grant."

AmeriCorps Provision 21(b) requires that "the grantee must maintain adequate supporting
documents for its expenditures . . . and in-kind contributions under this grant. Costs must be shown
in books or records . . . and must be supported by a source document, such as a receipt, travel
voucher, invoice, bill, in-kind voucher, or similar document."

These provisions apply to the Federal hnds subgranted by the Colorado Parent and Child Foundation
to the Family Literacy Program. We have questioned $2,891 of costs claimed by Family Literacy
due to its inability to maintain and provide adequate supporting documentation.

Recommendation

We recommend that (1) the Commission determine whether this subgrantee has the financial
capabilities to administer Federal grant funding, and (2) the Corporation's Office of Grants
Management resolve the $2,891 of questioned costs claimed by the subgrantee.


6 Home Instruction for Parents of Preschool Youngsters

                                                                 41
Commission 's Response

The Commission, responding for the subgrantee, concurred with the questioned $425 and
provided documentation to support the following expenses that were originally questioned:

       Tuition and fees
       Tuition and fees
       Textbooks
       Payment to hobby store
       Travel
       Travel
       Travel
       Payment to retail store
       Conference
       Conference reimbursement
       Hippy supplies
       Hippy supplies
       Hippy supplies
       Hippy supplies
       Travel
       Miscellaneous
       Miscellaneous
       Miscellaneous
       Miscellaneous
       Hippy conference
       Hippy supplies
       Hippy supplies
       Hippy National Conference
       Hippy etc.
        Total

Auditor's Comment

The documentation provided is considered adequate. Neither the Commission nor the subgrantee
provided documentation to support the remaining items. Accordingly, they remain questioned.

Finding No. 8

The Denver Department of Parks and Recreation received funding from the Colorado Department of
Education (CDE) to operate a Learn and Serve subgrant. The audit resulted in questioned costs of
$3,305, as noted below.
                 Year                                                 Amount
                 PY 2001                                              $ 408


                1Total                                                 $ 3,305   1


   Time sheets supporting salary and benefits costs of $379 and $29 allocated to the program could
   not be located to verify that the amounts were properly charged.



   A refundable deposit of $250 for use of a facility was incorrectly claimed as an expense.

   The schedule of claimed costs included a duplicate charge for office supplies of $1 86.



   A bill for $798 was submitted by the intermediary organization, CAEE, requesting payment for
   various expenditures including a catering deposit. No invoices were provided f ~ $298r of this
   total and no credit was entered for a deposit refund of $23 1. Costs questioned total $529.

   An invoice for $1,246 for catering a "Service-Learning Summit" appeared to be a reimbursement
   to a third party. No documentation was provided to document the actual cost charged by the
   caterer.

   Total revenue for the three grant years was $44,250, however, only $43,564 in expenses were
   recorded under the program for the period. As a result, revenue exceeded costs claimed by $686.

The inadequate documentation and overcharges appear to result from a lack of emphasis by the
Commission on the importance of maintaining proper support for claimed costs. These conditions
could result in a violation of the terms and conditions of the grant and potential funding
misapplications. Properly supported and accurate financial information is required for timely and
effective reporting and management decision-making.

Learn and Serve America General Grant Provision 8(b) requires the Grantee to "maintain adequate
supporting documents for its expenditures (federal and non-federal) and in-kind contributions made
under this grant. Costs must be shown in books or records . . . and must be supported by a source
document, such as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar document."

The Commission did not ensure that its subgrantees maintained adequate documentation of incurred
costs. As a result, this requirement was violated and $3,305 of costs are questioned.
                                               43
Recommendation

We recommend that the Commission reemphasize to its subgrantees the need for adequate
recordkeeping and compliance with grant terms and conditions.

Commission 's Response

The Commission, responding for the Denver Department of Parks and Recreation, provided
documentation to support the following:



       Conference expense
       Brochures
       Training materials
              Total

       Employee payroll records were also provided



       Training expense                                    $ 600
       Training by Colorado State Forest Service            1,000
       Posters and related shipping                         1,198
       Facilitation                                           150
               Total                                       $2,948



       The Commission agreed with the PY 2002 costs questioned.

The Commission provided an electronic spreadsheet summary of revenue and expenses related to the
Learn and Serve program managed by the Denver Department of Parks and Recreation. This
summary details revenue totaling $39,800 for the period September 2000 through August 2003,
which the Department of Parks and Recreation represents is the correct amount.

Auditor's Comment

The documentation provided in response to the draft report, except for the payroll records, is
considered adequate to allow these costs. The remaining questioned costs have been adjusted
accordingly. Payroll records were provided to support the missing time sheets in PY 2001.
However, this only demonstrates that the employee was, in fact, paid the amounts ciaimed. These
records do not meet the requirements of OMB Circular A-87 and, hence, remain questioned. Costs
for which the Commission or its subrecipient were unable to provide supporting documentation also
remain questioned.

With respect to revenue to the Denver Department of Parks and Recreation, we note that the
electronic spreadsheet, provided in response to the draft report, is not part of an integrated
accounting system. We note further that, missing from the spreadsheet is a transaction involving a
check, from the State of Colorado dated January 9,2001, and in the amount of $16,000, which was
deposited in the bank account of the Denver Department of Parks and Recreation on January 18,
2001, and which was provided to us during the audit. We have no reason to believe that the records
we were provided during the audit are incorrect. Accordingly, the original finding and
recommendation remain unchanged.

Finding No. 9

The Commission did not submit Financial Status Reports (FSRs) for the following grants in
accordance with time frames stipulated in the respective grant provisions:

                                                                                   Percentage of
                                                                     FSRs
                                                  FSRs                                 FSRs
    Grant Number                                                   Submitted
                                              Submitted Late                        Submitted
                                                                    On Time
                                                                                       Late
I 95PDSC0006    -   PDAT                  1         1          I       2       1      33.3%        1
I 02PDSC0006    -   PDAT                  I         1          5               1       16.7%       1
    01DSCC0006 - Disability                         1                  6              16.7%
    00LSCC0006 - Learn and Serve
                                                    2                  9              18.2%
    (CDE)
I   98ARCC0006 - America Reads            I         1          1       5       1      16.7%        1
The Corporation has established FSR due dates for each program and each year. We matched due
dates with actual FSR submission dates to arrive at the results shown above. The basic cause of the
late FSR submissions was that responsible managers did not place proper emphasis on the timely
gathering of information necessary to prepare FSRs. This condition results in a violation of the
terms and conditions of the grant and potential funding misapplications without timely detection. In
addition, both the grantor and grantee require current financial information for timely and effective
management decision-making.

Recommendation

We recommend that the Commission establish policies and procedures to ensure that FSRs are
properly completed and submitted on a timely basis.
Commission 's Response

The Commission, responding for the Colorado Department of Education, which managed the Learn
and Serve program, disagrees with the finding. The Commission noted that it has procedures in
place to ensure that the fiscal agent and Commission staff are aware of, and comply with, financial
reporting requirements and will continue to work closely with grantees to ensure full compliance.
Also, the Commission will continue to conduct annual training on fiscal procedures and to distribute
periodic reminders about the critical importance of filing completed fiscal documentation in a timely
manner.

Auditor's Comment

Contrary to the response from the Colorado Department of Education, its FSRs for the periods
ending December 3 1,2001, and August 3 1,2003, were signed by representatives on July 3,2002,
and December 27, 2003, respectively. We consider the Commission's other comments adequate.


Internal Controls Over Financial Reporting

In planning and performing our audit of award costs, as presented in Exhibits A through H, for the
period August 1,2000, to December 3 1,2003, we considered the Commission's internal controls in
order to determine our auditing procedures for the purpose of expressing our opinion on the financial
schedules and not to provide assurance on the internal controls over financial reporting.

The Commission's management is responsible for establishing and maintaining internal controls. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objectives of
internal controls are to provide management with reasonable, but not absolute, assurance that assets
are safeguarded against loss from unauthorized use or disposition, and that transactions are executed
in accordance with management's authorization and recorded properly to pennit the preparation of
financial schedules in accordance with accounting principles generally accepted in the United States
of America. Because of inherent limitations in any internal controls, errors or irregularities may
nevertheless occur and not be detected. Also, projection of any evaluation of the internal controls to
future periods is subject to the risk that procedures may become inadequate because of changes in
conditions, or that the effectiveness of the design and operation of policies and procedures may
deteriorate.

Our consideration would not necessarily disclose all matters of internal control over financial
reporting that might be reportable conditions. Under standards issued by the American Institute of
Certified Public Accountants, reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of internal control that, in our judgment, could
adversely affect the Commission's ability to record, process, summarize, and report financial data
consistent with the assertions of management in the financial statements. Material weaknesses are
reportable conditions in which the design or operation of one or more of the internal control
components does not reduce, to a relatively low level, the risk that errors or irregularities, in amounts
which would be material in relation to the financial schedules being audited, may occur and not be
detected within a timely period by employees in the normal course of performing their assigned
functions.

Internal Control Findings

Finding Nos. 1 through 9 set forth in the Compliance section of this report are also considered
findings on internal control.

                                                        ~     ~    -    Z     S     )    Q     ~    Q       ~'i
                                                        Leonard G. Birnbaum and

Alexandria, Virginia
July 28,2004
                           Follow-up On Pre-Audit Survey Findings
                                 OIG Audit Report No. 01-25
                                  Issued December 6,2000


Finding No. 1

The Commission's pre-award selection process did not include procedures to review specific aspects
of an applicant's financial management systems. These aspects include the capabilities of the
accounting system to provide necessary grant information for compliance with OMB Circular A-133.

Current Status

The Commission has developed a State Systems Review Questionnaire, sections of which
specifically address the fiscal context of the entity and the accounting system. The results of the
questionnaire are used to evaluate the applicant and to determine the level of risk. We consider this
finding closed.

Finding No. 2

The Commission was unable to locate documentation to support its funding decisions for program
years prior to 1996-97. The Commission's position is that this condition resulted when the
Commission was transferred in 1998 from the Colorado Department of Local Affairs to the Colorado
Community College System. A significant amount of documentation was believed to have been
filed with the Division of State Archives.

Current Status

The transfer of the Commission's administration among State agencies does not alleviate its
responsibility to maintain adequate records for all program years for three years from the close of a
grant, in accordance with 45 CFR fj 2541.420. We consider this finding closed.

Finding No. 3

The Commission did not have written grievance procedures, including dispute resolution procedures,
as required by 45 CFR 5 2540.230.

Current Status

The Commission has prepared a written grievance procedure that provides for a grievance
proceeding and binding arbitration if necessary. We consider this finding closed.
Finding No. 4

The Commission was unable to locate documentation to support its financial reporting for program
years prior to 1996-97, including the allocation of funding between AmeriCorps Competitive and
Formula grants and the amounts of State matching funds for the administrative grant. The
Commission's position is that this condition resulted when the Commission was transferred in 1998
from the Colorado Department of Local Affairs to the Colorado Community College System. A
significant amount of documentation was believed to have been filed with the Division of State
Archives.

Current Status

The transfer of the Commission's administration among State agencies does not alleviate its
responsibility to maintain adequate records for all program years for three years from the close of a
grant, as set forth in 45 CFR § 2541.420. We consider this finding open.

Finding No. 5

The Commission has not implemented an adequate process for obtaining and reviewing OMB
Circular A-133 audit reports for its subgrantees. When the reports are obtained, the Commission
does not document its review or any follow-up actions.

Current Status

An audit section has been included in the Colorado ArneriCorps Program Operating Grant Fiscal
Manual. This section describes the nature and purpose of A-133 audits and identifies which
programs require this audit coverage. Subgrantee A-133 audits are reviewed in conjunction with
the State Systems Review Questionnaire in order to develop an overall risk analysis for each
subgrantee. We therefore consider this finding closed.

Finding No. 6

The Commission did not maintain sufficient documentation to support procedures performed during
site visits. The pre-audit survey cited examples of the lack of documentation of specific tests
performed, operating sites visited, and procedures to verify information in subgrantee audit reports,
as well as examples of missing checklists.

Current Status

The Commission has developed a State Systems Review Questionnaire, sections of which
specifically address the fiscal context of the entity and the accounting system. The results of the
questionnaire are used to evaluate the applicant, including consideration of its audit reports, and to
determine risk levels using specific criteria. In addition, an ArneriCorps State Program Checklist has
also been implemented to evaluate subgrantees' programmatic results. We consider this finding
closed.

Finding No. 7

The pre-audit survey noted that, although the Commission has implemented WBRS, two of its
subgrantees had experienced technical problems with the system. As a result, the Commission was
not able to electronically submit aggregate FSRs to the Corporation or to review information for
these subgrantees online.

Current Status

The Commission stated that technical problems occasionally occur with WBRS and corrections are
sometimes necessary. However, these problems are isolated and we consider this finding closed.

Finding No. 8

The Commission did not have youth representation within its voting members and, therefore, did not
comply with 45 CFR $ 2550.50(b)(6). This regulation requires that the Commission include an
individual between the ages of 16 and 25 who is a participant or supervisor of a service program for
school-age youth, or of a campus-based or national service program.

Current Status

The Governor appointed to the Commission, by executive order, an individual who meets the
requirements of 45 CFR $ 2550.50(b)(6). We consider this finding closed.

Finding No. 9

The Corporation's August 2000 State Administrative Standards Report on the Commission indicated
that "over the past five years, the Commission has tripled the number of programs it administers
while the staff size has actually declined." The report noted the need for additional personnel to
reduce the workload on current staff.

Current Status

The programs operated by the Commission have been reduced in size since the finding was presented
in the pre-audit survey. Based on current requirements, staffing appears adequate. We consider this
finding closed.
                           Appendix A


Response of the Colorado Governor's Commission on Community Service
                       GOVERNOR'S
                               COMMISSION
                                        ON COMMUNITY
                                                   SERVICE
                       1059 Alton Way, Suite 253
                       Denver, CO 80230
                       Phone: (303) 595-1541


                                                                                                         Bill Owens
                                                                                                         Governor
                                                                                                        Jane E. Norton
                                                                                                         Lt. Governor
EXECUTIVE
        DIRECTOR
Nancy J. Brown         November 18,2004
COMMISSIONERS
Chair                  Ms. Carol Bates
Maureen Smith
Colorado Springs       Assistant Inspector General for Audit
Vice Chair             Corporation for National and Community Service
Kristin Donovan
Denver                 Office of Inspector General
Crystal Adams          1201 New York Avenue, NW, Suite 830
Denver                 Washington, DC 20525
Tanva Kellv-Bowrv
~e&minster
Jacki Allen-Benson     Dear Ms. Bates:
Eagle

p
y   Vigil
en er
                       Enclosed is the Governor's Commission on Community Service response to the draft report on
                       the results of the Inspector General incurred-cost audit of grants awarded to the Colorado
Ilene Dibble
Englewood              Governor's Commission on Community Service. Thank you for the extension of the due date
                       from November 5,2004 to November 19, 2004. It was helpful as we conducted three
 ~ u Cooke
     l
 ~rora                 conference and training sessions for our members and program managers during the original
                       30-day response period in addition to preparing the Commission response and accompanying
Samuel Mamet
Denver                 documentation.
AnneMarie Kemp
Lafayette              Included in the Fed Ex packet mailed to Stuart Axenfeld, Audit Manager, on Wednesday,




                                                   -
Colleen Lorenz         November 18, 2004, is a Commission summary response packet and a 4" three ring binder with
Denver
                       Response Appendix comments and documentation addressing each response. The packet
Elizabeth Marron       should arrive by Friday, November 19,2004, the extended due date.
Saguache

Olivia
Parker         Maher
                       Please let me know if I can provide answer any questions or provide additional information or
                       documentation for any of the responses.
Johanna Garton
Denver
                       Sincerely,
Jules Hampton
Ex-Officio


                       Y?*
                       Nancy J. Brow

                       Executive Director
                       Governor's Commission on Community Service

                       Enclosure
Colorado Governor's Commission on Community Service                                              Page 1
Response to Final Draft Inspector General Report 11104



Compliance Findinm

Finding No. 1


Commission's Response

The Commission disagrees with this finding in its entirety. As defined in the OMB rules, Equipment
(including furniture) is defined as items having a unit value cost of $5,000 or more. None of the
items referred to as equipment in this finding had a single unit cost $5,000 or higher. It appears that
individual units were added cumulatively to arrive at the total, as shown in Appendix A-
Finding 1.

Finding No. 2

Commission's Response

While the Commission agrees that the position was added, it disagrees that the expense was not
allowable. The Commission notes that in January 2003, the Commission was re-assigned by
Executive Order to the Office of Lieutenant Governor, and subsequently the Chief of Staff
position was assigned supervisory oversight. Meanwhile an approved staff vacancy occurred. As
the Commission utilized vacancy savings to cover the position, it viewed the expenditure as a
replacement position, rather than the addition of a new position that would have increased the
total amount expended for staffing. The Chief of Staff position was included and approved in the
'04 budget submission to the Corporation.

The Commission disagrees that time records were not available for the Chief of Staff. The
Commission follows fiscal rules under the Colorado Community Colleges System, which are
based on a waiver from the Federal Department of Education and require time-charged samples
on a schedule different than outlined above for Circular A-87. A timesheet showing the portion
of time the Chief of Staff spent on Commission oversight was provided to the auditor. The
Commission now understands that a comprehensive timesheet showing the full distribution was
desired.

The Commission has already taken steps to revise its time tracking processes after the auditors
clarified the procedure at the exit interview. Meanwhile, the Commission notes that it acted in
good faith in tracking the Chief of Staffs supervisory support.


 Finding No. 3

Commission's Response
The purpose of this trip was to the introduction of a new Interim Executive Director to the
Corporation for National and Community Service, with the distribution of materials on
Colorado Governor's Commission on Community Service                                               Page 2
Response to Final Draft Inspector General Report 11/04
Commission's mission, programs, and events to Citizen Corps and Congressional staff offices as
an educational, nonpolitical outreach activity. No lobbying or political activity occurred during
this trip. The Commission will continue to use established procedures to ensure that all staff is
aware of the prohibition against political and legislative activity and to ensure that even the
potential appearance of such activity is avoided. See the documentation in Appendix, Finding 3.

Finding, No. 4

Commission's Response

Appendix 1 contains documentation related to each item cited above. The Commission
acknowledges that a difference of opinion exists as to the sufficiency of documentation in the several
cases. While additional documentation may have been advantageous for several items, the
documentation demonstrates that the expenditures were reasonable and within fiscal guidelines.
Documentation has been consistent for every in-kind claim with required provider valuation and
signature for all three years audited.

On one issue, a $91 0 refund was deposited into a non-PDAT account, but was subsequently used for
PDAT-related training related purposes. The Commission acknowledges that the connection
between the deposit and subsequent expenditure records may not have been clear to the site auditor.
The Commission will take additional steps to ensure proper tracking of refunded money in the future.

Finding No. 5

Commission 's Response

The Commission acknowledges that an invoice from a contractor (representing a team of trainers)
seemingly shows payment for seminar development at a rate that exceeded $443/day, however this
was the result of insufficient detail on the bill as it did not include a formula itemizing that two
trainers were involved or that the rate of payment was calculated on a per person rate, as further
described in Appendix -Finding 5. Also included is an email that had been sent to the contractor
following receipt of the bill clarifying the rate and stating that the rate could not exceed $443 for any
of the services provided under the project contract. The Commission will ensure that all future
invoices provide sufficient detail related to the formula used for the purchase of consultant services.


Finding No. 6

Commission's Response

The Commission disagrees with this finding. In Appendix - Finding 6, the Commission has
submitted documentation clarifying that a portion of the indirect payments shown in the chart are
attributable to different fiscal years.

Additionally, Appendix 1 contains documentation related to each additional item cited above. In
particular, new documentation supporting the Colorado Cares match claims is being submitted.
Colorado Governor's Commission on Community Service                                          Page 3
Response to Final Draft Inspector General Report 11/04
The Commission acknowledges that a difference of opinion between the Commission and the
site auditor exists as to the sufficiency of documentation regarding some of the match records.
While additional documentation may have been helpful in some cases, signed donor forms and
other documentation demonstrates that the Commission acted in good faith to collect, track and
report match accurately. The Commission's business practices for tracking match documentation
has been consistent over time, including securing contribution forms signed by each donor for
costs claimed.


Finding No. 7

Commission's Response
The Commission and Colorado Foundation for Parents and Children disagree with this finding.
Similar to the situation described in Finding 1 of this report, the auditor cumulatively added
items that had single unit cost of under $5,000 to arrive at the total. See Appendix- Finding 7.

Finding No. 8

Commission's Response
On the first issue, the Commission sub granted the Learn & Serve Community-based grant to the
Colorado Department of Education (CDE). CDE disagrees with the finding and has submitted ledger
reports for the three years totaling $573,257, as reported on the FSR. Copies of CDE's applicable
grant ledger reports are shown in the Appendix- Finding 8.

On the second issue, the Commission disagrees that the Education Award draw downs exceeded the
total amount expended on general ledgers Education Awards general ledgers adding up to $62,700
are attached under Appendix - Finding 8.

 Finding No. 9

Commission's Response
All programs were notified about the findings as shown above - responses are noted in the
Appendix-Finding 9. In several cases, the programs were unable to further research the findings due
to a lack of information on which member files were being referenced.

The Commission agrees to reemphasize the need for full and complete eligibility compliance for all
AmeriCorps sub grantees. Additionally, to respond to the draft Internal Control findings, the
Appendix contains a description of the methods and samples of the publications used by the
Commission to ensure member eligibility and documentation compliance. The Commission will
continue to conduct annual trainings on eligibility and to distribute periodic reminders about the
critical nature of eligibility documentation.
Colorado Governor's Commission on Community Service                                           Page 4
Response to Final Draft Inspector General Report 11/04



Finding No. 10

Commission 's Response

The Commission and the Colorado Parent and Child Foundation acknowledgethat a duplicate charge
did occur. The Foundation is prepared to repay $625 for this charge, as shown in Appendix - Finding
10. The Commission will continue to work with all subgrantees to ensure that charges are adequately
supported and that errors are corrected.

Findinp No. 1 1

Commission's Response
The Commission has attached a detailed explanation from Colorado Parent and Child Foundation for
the questioned costs. The program reported that a substantial amount of this documentation was
submitted earlier, however it may have been overlooked or misplaced. Documentation for all items,
with the exception of one expenditure for $425 has been provided. The Foundation is prepared to
repay $425 for that charge, as shown in Appendix - Finding 11. The Commission will continue to
work with all subgrantees to ensure that charges are adequately supported and that errors are
corrected.

Finding No. 12

Commission 's Response

The Governor's Commission on Community Service subgranted the Learn & Serve Community-
based grant to the Colorado Department of Education (CDE) through an intra-state agency
Memorandum of Understanding that included responsibility for full fiscal management of the grant.
As noted in Appendix 12, CDE has submitted new documentation to support the required match.
This documentation was not available at the time of the audit, in part due to misinformation
regarding the allowability of non-CNCS federal funds as match and as program managers did not
have access to detailed documentation to support the matching costs claimed at the time. CDE has
implemented procedures to ensure that matching costs claimed are adequately documented and are in
compliance with applicable Corporation and grant provisions. Additionally, the Commission has and
will continue to implement additional training and procedures to ensure that all grantees understand
the standards of documentation required for matching funds.

Finding No. 13

Commission 's Response

The Governor's Commission on Community Service subgranted the Learn & Serve Community-
based grant to the Colorado Department of Education (CDE), who subsequently subgranted funds to
the City and County of Denver Parks and Recreation Department. Appendix -Finding 13 contains
new documentation that was not available at the time of the site auditor's visit, now being submitted
Colorado Governor's Commission on Community Service                                             Page 5
Response to Final Draft Inspector General Report 11/04
by Denver Parks and Recreation. The documentation notes that several accounting errors were made.
Comparing the corrected errors to the finding of being overdrawn by $686, Denver reports that the
corrected record shows that costs exceeded revenues by $408.

Finding No. 14

Commission's Response

The Commission, and its Learn and Serve sub grantee, Colorado Department of Education (CDE),
disagree with this finding. Attached are copies of CDE's Learn & Serve FSRs indicating each FSR
was submitted on or before the due date. Further, the Commission disagrees that a FSR was
submitted late for the Colorado Promise Fellows grant, which is a Fixed Award grant that is exempt
from FSR requirements. The Commission will continue to ensure that procedures are in place for
compliance with financial reporting requirements, and will continue to work closely with grantees to
ensure full compliance. Additionally, in response to the draft Internal Control findings, the Appendix
contains a description of the methods and samples of the publications used by the Commission to
ensure compliance. The Commission will continue to conduct annual trainings on fiscal procedures
and to distribute periodic reminders about the critical nature of fiscal documentation.

Finding No. 15

Commission's Response

The Commission and Bright Beginnings agree that one FSR in 2002 was submitted late due to
unavoidable circumstances at the local level. The Commission disagrees that a late FSR was
submitted by the Colorado Department of Education for the AmeriCorps Education Award grant.
Education Award grants are exempt from FSR submission requirements. The Commission will
continue to work closely with our grantees to ensure compliance in relation to financial reporting
requirements. Additionally, to respond to the draft Internal Control findings, the Appendix contains
a description of the methods and samples of the publications used by the Commission to ensure
compliance. The Commission will continue to conduct annual trainings on fiscal procedures and to
distribute periodic reminders about the critical nature of fiscal documentation.

General Commission Comments: The Commission's current Executive Director started as a new
employee on June 1,2003. The Office of Inspector General Sent a notification letter regarding this
audit on July 28,2003. The new Executive Director has been working with the auditors assigned to
this audit for the past year, seeking to comply with requests for documentation. The new Executive
Director is committed to implementing all refinements to administrative processes determined
necessary from this audit. Many refined business processes, have in fact, been systematically
implemented as a result of the new Executive Director's leadership of the Commission to date. The
Commission passed a Standards Review conducted August 7 - 11,2000, which included positive
feedback on administrative processes.
Colorado Governor's Commission on Community Service                                     Page 6
Response to Final Draft Inspector General Report 11/04




         Appendix A (See Appendix A, 4", 3 ring binder included with the hard copy
         Commission Response)

           Response of the Colorado Governor's Commission on Community Service

                                             TABLE OF CONTENTS

Response and Exhibits

General Comments and Corrections

Finding 1 Purchase of Supplies Response and Exhibits

Finding 2 Chief of Staff Time Allocation Response and Exhibits

Finding 3 Interim Director Trip to Washington DC Response and Exhibits

Finding 4 Supporting Documentation for Non-payroll Transactions Response and Exhibits

Finding 5 PDAT Consultant Charge Response and Exhibits

Finding 6 Commission Match-Response and Exhibits

Finding 7 CPCF Supplies Response and Exhibits

Finding 8 Ledger Discrepancies Response and Exhibits

Finding 9 Member Records Response and Exhibits

Finding 10 CPCF Accounting Reversal Response and Exhibits

Finding 11 CPCF Subgrant to Jeffco Response and Exhibits

Finding 12 Learn & Serve: CDE Response and Exhibits

Finding 13 Learn & Serve: City and County of Denver Response and Exhibits

Finding 14 Commission FSRs Response and Exhibits

Finding 15 AmeriCorps FSRs

Pre- Audit Survey Follow-up Response
                         Appendix B


Response of the Corporation for National and Community Service
                                   corxfor~iuAL &
                                   COMMUNITY
                                   SERVICE=


To:

From:         M                                            Management

CC:           Andrew Kleine, ~ c t i k c h i e Financial
                                               f         Officer
              Rosie Mauk, Director of AmeriCorps Staternational


Date:         November 23,2004

Subject:      Response to OIG Draft Audit Report 05-04: Incurred Cost Audit of Grants
              Awarded to the Colorado Governor's Commission on Community Service


We have reviewed the draft audit report of the grants to the Colorado Governor's Commission
on Community Service. Due to the limited timeframe for response, we have not analyzed
documentation provided by the Colorado Commission supporting the questioned costs nor
reviewed the audit work papers. We will respond to all findings and recommendations when the
audit is issued and we have reviewed the findings in detail. The Colorado Commission has also
provided an extensive response and is working on corrective action as necessary.




                           1201 New York Avenue, NW    *
                                                      Washington, DC 20525
                                 202-606-5000 + www.nationalservice.org
                          Senior Corps + AmeriCorps   * Learn and Serve America                                   I
                                                                                        The President's Call to Service
